No. ___________

In the Supreme Court of the United States

RICKY ALLEN FACKRELL, PETITIONER,
V.

UNITED STATES OF AMERICA, RESPONDENT
PETITION FOR WRIT OF CERTIORARI
TO THE
UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT
MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS

Petitioner Ricky Allen Fackrell, by and through his undersigned attorney,
and pursuant to Supreme Court Rule 39.1, and Title 18, United States Code,
Section 3006A(d)(7), respectfully moves this Honorable Court for leave to proceed in forma pauperis, and for leave to file the attached Petition for Writ of
Certiorari to the United States Court of Appeals for the Fifth Circuit without
prepayment of fees. Petitioner was represented by appointed counsel under the
Criminal Justice Act of 1964, as amended, in the district court and the court of
appeals. Petitioner never sought leave to proceed in forma pauperis in any
other court.

Respectfully submitted.
s/ Judy Fulmer Madewell
JUDY FULMER MADEWELL
First Assistant Federal Public Defender
Western District of Texas
727 E. César E. Chávez Blvd., B-207
San Antonio, Texas 78206-1205
(210) 472-6700
(210) 472-4454 (Fax)
Counsel of Record for Petitioner
DATED: October 14, 2021

